2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Maii Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.
TIMOTHY P. MURPHY,
Petitioner,
v.
SUSAN STACY,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1 (b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6574 words, excluding the parts that are exempted by Supreme
Court Rule 33.1 (d), as needed.

Subscribed and sworn to before me this 25th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NQTARY-Stat* of NAraska
RENEE J. GOSS
Rl My Comm. Exp. September5,2023
Notary Public

Affiant

40120

